KOSKOFF KOSKOFF & BIEDER PC

August 23, 2019
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street N.E.
Washington, D.C. 20543
Re:

Remington Anns Co., LLC, et al. v. Donna l. Soto, Administratrix of the Estate of
Victoria l. Soto, et al., 19-168

Dear Mr. Harris:
I am writing on behalf of Respondents in the above-referenced case to request an
extension of time of 30 days, up to and including Friday, October 4, 2019, for the filing of a brief
in opposition to the petition for a writ of certiorari in case number 19-168. Absent an extension,
the brief would be due on Wednesday, September 4, 2019 - the same day that various entities
will be filing amicus briefs in support of the petition. This is the first extension Respondents
have sought. Petitioners do not oppose this request.

ounsel for Respondents
cc: Counsel for Petitioners

350 Fairfield Avenue, Bridgeport, CT 06604

I

203.336.4421

I

lox: 203.368.3244

I

www.koskoff.com

